HHS/OIG, Audit - "Review of Medicare Payments for Beneficiaries with Institutional Status, UnitedHealthCare of Florida, Sunrise, Florida," (A-05-01-00091)
Department
of Health and Human Services
"Review of Medicare Payments for Beneficiaries with Institutional Status,
UnitedHealthCare of Florida, Sunrise, Florida," (A-05-01-00091)
September 5, 2002
Complete Text of Report is available in PDF format
(568 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit
was to determine if payments to UnitedHealthcare (United) under Contract H9011
were appropriate for beneficiaries reported as institutionalized.  We
determined that United received Medicare overpayments totaling $121,023 for
127 beneficiaries incorrectly reported as institutionalized during the period
January 1, 1998 through December 31, 2000.  Reasons for questioning the
institutional status of the beneficiaries included: no documentation of institutional
residency, admit or discharge dates during the required 30 day residency period,
and issues related to hospital stays.